                    AUDIT REPORT

                Audit of NRC’s Oversight of Licensees’
                       Nuclear Security Officers

                     OIG-08-A-07 March 18, 2008




All publicly available OIG reports(including this report) are accessible through
                              NRC’s Web site at:
             http:/www.nrc.gov/reading-rm/doc-collections/insp-gen/
                                          March 18, 2008




MEMORANDUM TO:              Luis A. Reyes
                            Executive Director for Operations



FROM:                       Stephen D. Dingbaum /RA/
                            Assistant Inspector General for Audits


SUBJECT:                    AUDIT OF NRC’S OVERSIGHT OF LICENSEES’ NUCLEAR
                            SECURITY OFFICERS (OIG-08-A-07)


Attached is the Office of the Inspector General’s (OIG) audit report titled, Audit of NRC’s
Oversight of Licensees’ Nuclear Security Officers.

The report presents the results of the subject audit. Agency comments provided at the
exit conference on February 21, 2008, have been incorporated, as appropriate, into this
report.

Please provide information on actions taken or planned on each of the
recommendations within 30 days of the date of this memorandum. Actions taken or
planned are subject to OIG follow up as stated in Management Directive 6.1.

We appreciate the cooperation extended to us by members of your staff during the
audit. If you have any questions or comments about our report, please contact me at
415-5915 or Beth Serepca, Team Leader, Security and Information Management Team,
at 415-5911.

Attachment: As stated
Electronic Distribution

Frank P. Gillespie, Executive Director, Advisory Committee on Reactor
 Safeguards/Advisory Committee on Nuclear Waste
E. Roy Hawkens, Chief Administrative Judge, Atomic Safety and
 Licensing Board Panel
Karen D. Cyr, General Counsel
John F. Cordes, Jr., Director, Office of Commission Appellate Adjudication
William M. McCabe, Chief Financial Officer
Margaret M. Doane, Director, Office of International Programs
Rebecca L. Schmidt, Director, Office of Congressional Affairs
Eliot B. Brenner, Director, Office of Public Affairs
Annette Vietti-Cook, Secretary of the Commission
Bruce S. Mallett, Deputy Executive Director for Reactor
 and Preparedness Programs, OEDO
Martin J. Virgilio, Deputy Executive Director for Materials, Waste, Research,
 State, Tribal, and Compliance Programs, OEDO
Darren B. Ash, Deputy Executive Director for Information Services
 and Chief Information Officer, OEDO
Vonna L. Ordaz, Assistant for Operations, OEDO
Timothy F. Hagan, Director, Office of Administration
Cynthia A. Carpenter, Director, Office of Enforcement
Charles L. Miller, Director, Office of Federal and State Materials
 and Environmental Management Programs
Guy P. Caputo, Director, Office of Investigations
Thomas M. Boyce, Director, Office of Information Services
James F. McDermott, Director, Office of Human Resources
R. William Borchardt, Director, Office of New Reactors
Michael F. Weber, Director, Office of Nuclear Material Safety and Safeguards
James T. Wiggins, Acting Director, Office of Nuclear Reactor Regulation
Brian W. Sheron, Director, Office of Nuclear Regulatory Research
Corenthis B. Kelley, Director, Office of Small Business and Civil Rights
Roy P. Zimmerman, Director, Office of Nuclear Security and Incident Response
Samuel J. Collins, Regional Administrator, Region I
Victor M. McCree, Acting Regional Administrator, Region II
James L. Caldwell, Regional Administrator, Region III
Elmo E. Collins, Jr., Regional Administrator, Region IV
                             Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


EXECUTIVE SUMMARY

   BACKGROUND

         Licensee Actions to Ensure Fitness and Competence of
         Security Officers

         Licensees’ take various measures to ensure that their security
         officers are mentally and physically fit, professionally competent,
         and sufficiently trustworthy to carry out their duties at nuclear power
         plants. These measures are designed to comply with various NRC
         regulations governing employee conduct, health, and work
         requirements.

         NRC exercises oversight of licensees’ security officers primarily
         through the Reactor Oversight Process’s physical protection
         cornerstone. Managed by the Office of Nuclear Security and
         Incident Response (NSIR), this program includes baseline security
         and safeguards inspections. Regional staff also conduct oversight
         activities, such as special inspections initiated in response to
         specific problems or extraordinary events. Additionally, NRC also
         evaluates licensee security programs through force-on-force
         exercises which are designed to assess the capability of security
         personnel to execute security plans while protecting the facility
         against sabotage.

   PURPOSE

         The audit objective was to assess NRC’s oversight of security
         officers employed by licensees to protect nuclear power plants.
         OIG’s work considered fitness-for-duty regulations in 10 CFR 26, as
         well as pertinent regulations in 10 CFR 73.

   RESULTS IN BRIEF

         NRC staff conduct security oversight activities in accordance with
         agency standards; however:

          Regulations for licensees’ behavioral observation programs lack
           detailed implementation guidance and are not integrated with
           guidance for related security programs.

          Advance notification of all baseline security inspections could
           compromise the accuracy of NRC’s assessments of licensee
           fitness-for-duty performance.


                                      i
                        Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


     Behavioral Observation Programs Lack Detailed Guidance and
     Are Not Integrated with Related Security Programs

     NRC requires licensees to implement behavioral observation
     programs at nuclear power plants, but lacks an integrated
     regulatory framework for overseeing these programs. This occurs
     because behavioral observation program standards and
     implementation guidance exist in several forms of guidance that are
     not fully integrated. This compromises NRC’s oversight of licensee
     behavioral observation programs, thereby increasing security risks
     to nuclear power plants.

     Advance Notification of All Baseline Security Inspections
     Could Compromise NRC Assessments

     NRC routinely provides licensees advance notification of security
     inspections, even though agency policy does not preclude no-
     notice or short-notice inspections. This occurs because agency
     guidance directs staff to pre-announce inspections at operating
     power reactor sites to minimize the regulatory burden on licensees.
     As a result, inspections might not accurately capture the day-to-day
     operating conditions of licensee security programs, thereby
     increasing the risk that NRC might overlook evidence of systemic
     problems in these programs

RECOMMENDATIONS

     This report makes three recommendations. A consolidated list of
     these recommendations appears in Section V of this report.

AGENCY COMMENTS

     At an exit conference held on February 21, 2008, agency managers
     provided comments concerning the draft report. We modified this
     report in response to their comments, as we deemed appropriate.
     NRC reviewed these modifications and opted not to submit formal
     comments.




                                 ii
                    Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


ABBREVIATIONS AND ACRONYMS


       BOP     Behavioral Observation Program

       NRC     U.S. Nuclear Regulatory Commission

       NSIR    Office of Nuclear Security and Incident Response

       OGC     Office of the General Counsel

       OIG     Office of the Inspector General (NRC)




                             iii
       Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers




[Page intentionally left blank.]




                iv
                                         Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


TABLE OF CONTENTS


    EXECUTIVE SUMMARY.........................................................................i

    ABREVIATIONS AND ACRONYMS ..................................................... iii

    I.     BACKGROUND .............................................................................1

    II.    PURPOSE......................................................................................2

    III.   FINDINGS ......................................................................................3
           A. OVERSIGHT OF LICENSEE BEHAVIORAL
               OBSERVATION PROGRAMS .........................................................4

           B.     ADVANCE NOTIFICATION OF SECURITY INSPECTIONS ....................8

    IV.    AGENCY COMMENTS ................................................................10

    V.     CONSOLIDATED LIST OF RECOMMENDATIONS ....................11


APPENDIX

    A.     SCOPE AND METHODOLOGY...................................................13




                                                   v
       Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers




[Page intentionally left blank.]




                vi
                                      Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


I.   BACKGROUND

               Licensee Actions to Ensure Fitness and Competence of
               Security Officers

               Licensees take various measures to ensure that their security
               officers are mentally and physically fit, professionally competent,
               and sufficiently trustworthy to carry out their duties at nuclear power
               plants. These measures are designed to comply with various NRC
               regulations governing employee conduct, health, and work
               requirements. For instance, licensees must review the
               backgrounds of prospective employees before granting them
               unescorted access to nuclear power plants.1 Employees are
               subject to for-cause and random testing for alcohol and drug use.2
               In addition, licensees are required to implement behavioral
               observation programs to detect or prevent malicious conduct.3
               These programs include mandatory awareness programs that train
               employees on identification and management of workplace
               behavior problems. Lastly, security personnel at nuclear power
               plants must pass routine medical exams and physical fitness tests4,
               and undergo regular training in job-specific knowledge and skills
               such as rules for use of lethal force and weapons proficiency.5

               NRC Oversight of Licensee Security Officers

               NRC exercises oversight of licensees’ security officers through the
               Reactor Oversight Process physical protection cornerstone.
               Managed by the Office of Nuclear Security and Incident Response
               (NSIR), this program includes baseline security and safeguards
               inspections. Through these inspections, NRC evaluates licensees’
               implementation of agency security regulations at nuclear power
               plants. Security specialists assigned to NRC Regional Offices
               conduct inspections at nuclear power plants in accordance with
               agency guidance that prescribes the scope and frequency of
               inspections.6 NRC inspectors carry out most baseline security
               inspections at each plant on a biennial basis.7 Regional staff
               conduct other oversight activities, such as special inspections
               initiated in response to specific problems or extraordinary events. In

1
  10 Code of Federal Regulations (CFR) 73.56 (b) (1) and (2) (I).
2
  10 CFR 26.24.
3
  10 CFR 73.56 (b)(2) ((iii).
4
  10 CFR 73-- Appendix B, I (B) and (C).
5
  10 CFR 73-- Appendix B, II and III.
6
  Inspection Procedure (IP) 71130.
7
  Three inspection procedures in IP 71130 are performed annually, and one is performed
triennially.

                                               1
                                       Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


                addition, NRC resident inspectors assigned to power plants
                routinely observe licensee security personnel, and will assume
                additional duties as the agency implements new plans for
                expanding the role of resident inspectors in security oversight.




                        Figure 1: Security personnel participating in weapons training.

                NRC further evaluates licensee security programs through triennial
                force-on-force exercises. These exercises test the ability of
                security personnel at each nuclear power plant to execute security
                plans and protect facilities against sabotage.8 Force-on-force
                exercises are part of the baseline security inspection program.9


II.   PURPOSE

                The objective of this audit was to assess NRC’s oversight of
                security officers employed by licensees to protect nuclear power
                plants. OIG’s work considered fitness-for-duty regulations in 10
                CFR 26, as well as pertinent regulations in 10 CFR 73. Due to an
                ongoing OIG investigation, this audit does not address the agency’s
                allegations program. Appendix A contains information on the audit
                scope and methodology.




8
  In 2006, OIG conducted a Special Inquiry examining NRC’s efforts to ensure that force-on-force
exercises adequately test nuclear power plant defensive capabilities. OIG determined that
advance distribution of exercise schedules to individuals without a need to know can compromise
the security of this information. “NRC’s Oversight of the Force-on-Force Program,” Case No. 05-
01S, May 1, 2006.
9
  Force-on-force inspection procedures are listed in IP 71130.03, “Contingency Response—
Force-on-Force Testing.”

                                                2
                                     Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


III. FINDINGS

               In 2007, NRC concluded a rulemaking for 10 CFR 26 that
               introduced new work hour controls for personnel at nuclear power
               plants, aligned agency drug testing protocols with those used
               throughout the federal government, and integrated special
               guidance for security personnel with agency regulations applicable
               to all personnel employed at nuclear power plants.10 In addition, a
               rulemaking that would amend security regulations in 10 CFR 73,
               was ongoing at the time of this audit. According to agency officials,
               these rulemaking efforts address behavioral observation program
               regulations and align them with regulations for licensee access
               authorization and fitness-for-duty programs. OIG auditors found
               that NRC staff conducted security oversight activities in accordance
               with agency standards. However, auditors found two issues that
               NRC management should address to improve agency performance,
               specifically:

                Regulations for licensees’ behavioral observation programs lack
                 detailed implementation guidance and are not integrated with
                 guidance for related security programs.

                Advance notification of all baseline security inspections could
                 compromise the accuracy of NRC’s assessments of licensee
                 fitness-for-duty performance.

               By enhancing behavioral observation program oversight and
               incorporating limited-scope, short-notice inspections into the
               baseline security inspection program, NRC can improve its
               oversight of licensees’ security officers.




10
  On April 17, 2007, the Commission approved new fitness-for-duty rules amending 10 CFR 26,
and instructed staff to develop accompanying implementation guidance for licensees.

                                              3
                                         Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


        A.    Oversight of Licensee Behavioral Observation Programs

                  Behavioral Observation Programs Lack Detailed Guidance and
                  Are Not Integrated with Related Security Programs

                  NRC requires licensees to implement behavioral observation
                  programs at nuclear power plants, but lacks an integrated
                  regulatory framework for overseeing these programs. This occurs
                  because behavioral observation program standards and
                  implementation guidance exist in several forms of guidance that are
                  not fully integrated. This compromises NRC’s oversight of licensee
                  behavioral observation programs, thereby increasing security risks
                  to nuclear power plants.

                  Key Features of Behavioral Observational Programs

                  NRC staff consulted with U.S. Department of Defense subject
                  matter experts to identify features of effective behavioral
                  observation programs. Through this work, agency staff have
                  determined that licensees’ programs should have the following
                  elements:11

                      •   Professional management. Behavioral observation
                          programs require licensee personnel to make judgments
                          about an individual’s mental health and potential for
                          malicious behavior. However, only mental health specialists
                          are professionally qualified to make such judgments and
                          recommend measures for dealing with psychologically unfit
                          employees.

                      •   Standardized procedural guidance. Behavioral observation
                          programs should have clear standards for determining
                          whether an employee’s trustworthiness and reliability are
                          compromised. These standards should further prescribe
                          actions to be taken by licensees if employees are deemed
                          unfit for duty.

                      •   Integration with plant security. Behavioral observation
                          programs must be integrated with other programs, such as
                          access authorization, that are designed to mitigate threats
                          posed by psychologically unfit employees.




11
     Agency officials told OIG that the ongoing 10 CFR 73 rulemaking addresses these issues.

                                                  4
                                    Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


                Behavioral Observation Program Regulations

                NRC lacks an integrated regulatory framework for overseeing
                licensees’ behavioral observation programs. In particular, NRC
                needs to strengthen its regulations for professional qualification and
                implementation standards, and integrate behavioral observation
                program regulations with related security regulations.

                Professional Qualifications

                NRC’s regulations regarding licensee behavioral observation
                programs are not prescriptive. The regulations do not prescribe
                mental health qualification standards for program staff, nor does the
                agency define staff roles and responsibilities. For example, a
                behavioral observation program manager could lack experience or
                formal training in mental health, and could also be responsible for
                other programs. In contrast, agency regulations governing drug
                and alcohol testing prescribe professional requirements for licensee
                personnel and contractors responsible for administering tests.

                Procedural Guidance

                Agency regulations also do not specify how licensees should
                manage employees whose behavior raises trustworthiness or
                reliability concerns.12 NRC security guidance issued in 2004
                advises licensees on “for-cause” psychological evaluations in
                response to aberrant behavior. Nevertheless, this guidance does
                not define conditions that would warrant an evaluation and, as
                advisory guidance, lacks the regulatory force of CFR rules. In
                contrast, CFR sections governing drug and alcohol use explicitly
                require for-cause testing of employees who appear to be impaired,
                and require that such employees be relieved from duty with
                suspended site access pending test results. Further, licensees
                must develop Employee Assistance Program action plans for
                employees who test positive for first-time drug and alcohol
                offenses; repeat violations can automatically trigger revocation of
                employees’ site access clearance.13

                Program Integration

                Behavioral observation program regulations are not explicitly linked
                to other CFR sections governing fitness-for-duty and access
                authorization. These programs are inherently related, and thus,
                must be implemented in tandem to assure plant security. If

12
     10 CFR 73.56.
13
     10 CFR 26.27.

                                             5
                              Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


        integrated, these programs provide a comprehensive framework for
        identifying personnel who might pose a security threat and
        preventing or mitigating harm these personnel might cause.
        Figure 2 illustrates how behavioral observation programs fit into a
        comprehensive framework for safeguarding nuclear power plants.



               Insider Threat Mitigation: Defense-in-Depth

    Access to Site            Access to Means                 Access to Target


    PREVENTION                   DETECTION                        DENIAL

         Access                    Behavioral                 Physical protection
      Authorization            Observation and                  measures deny
        programs                Fitness-for-Duty                 malicious and
    prevent malicious          programs detect                psychological unfit
       behavior by             threats posed by                    persons
   denying site access        personnel with site-              opportunities to
         rights to            access before they                harm others or
    untrustworthy and         can commit hostile               damage facilities.
   unreliable persons.                acts.




Source: OIG analysis.

Figure 2: Behavioral observation programs work in tandem with other security programs
as part of a defense-in-depth approach to safeguarding nuclear power plants.

        Inconsistent Regulations

        NRC lacks assurance that its behavioral observation program
        regulations ensure nuclear power plant security because these
        regulations lack detailed programmatic criteria and are insufficiently
        integrated with related CFR sections. Specifically, agency
        regulations do not explicitly state NRC’s expectations of licensees
        in the development and implementation of behavioral observation
        programs for security personnel. Moreover, the language of current
        regulations does not explicitly explain how behavioral observation
        programs fit into the broader context of licensee programs and
        agency regulations designed to ensure that licensee security
        personnel are fit for duty, such as access authorization.




                                       6
                                       Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


                Security Implications

                Without clear and well-integrated behavioral observation program
                regulations, NRC and its licensees might not identify program
                deficiencies that could jeopardize nuclear power plant security and
                public safety. During 2007, for example, a plant security manager
                reportedly noticed that an officer seemed too distressed to work,
                and relieved the officer from duty. Additionally, according to NRC
                analysis of an incident occurring at a different plant in early 2007, a
                licensee medical officer relieved an employee on the basis of
                aberrant behavior but, in accordance with plant procedures, did not
                suspend the employee’s site access rights.14 In both cases, the
                expelled employees later committed murder and/or suicide. NRC
                staff familiar with these cases commented that licensees’
                behavioral observation programs functioned properly to the extent
                that unfit employees did not harm their respective plants. However,
                the staff remarked that these outcomes could have been incidental.
                In both cases, psychologically unfit employees retained some level
                of access to their respective plants after being relieved from duty,
                and thus, could have damaged plant facilities or harmed co-
                workers.

                Without regulations specifying how licensees should manage unfit
                personnel in the broader context of plant security, NRC risks
                diminished ability to identify deficiencies in licensees’ programs and
                pursue corrective actions. Such deficiencies could undermine
                licensees’ efforts to protect their facilities in accordance with site
                security plans.

                Recommendations

                OIG recommends that the Executive Director for Operations:

                1.      Revise regulations governing licensee behavioral
                        observation programs to include specific criteria, such as
                        program staff qualifications and procedures for managing
                        unfit personnel.

                2.      Integrate behavioral observation program regulations with
                        access authorization regulations in ongoing Part 73
                        rulemaking.
14
    The medical officer was not a mental health professional, but referred the employee to his
personal doctor for care. OIG does not question this decision. Rather, OIG cites this incident to
illustrate that medical officers without mental health care qualifications can find themselves in
situations requiring them to make critical judgments about an employee’s mental health, and that
actions taken to help an employee with mental health problems do not automatically “trigger”
suspension of site access.

                                                7
                                        Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


        B.    Advance Notification of Security Inspections

                  NRC routinely provides licensees advance notification of security
                  inspections, even though agency policy does not preclude no-
                  notice or short-notice inspections. This occurs because agency
                  guidance directs staff to pre-announce inspections at operating
                  power reactor sites to minimize the regulatory burden on licensees.
                  As a result, inspections might not accurately capture the day-to-day
                  operating conditions of licensee security programs, thereby
                  increasing the risk that NRC might overlook evidence of systemic
                  problems in these programs.

                  Inspection Guidance

                  NRC guidance advises staff to provide licensees advance
                  notification of upcoming inspections, but does not preclude short
                  notice inspections. Advance notification may be made by a written
                  communication, telephone call, or other communication as long as
                  the information is communicated to the appropriate level of
                  management in the licensee’s organization. Additionally, the
                  advance notice should include the approximate date, broad subject
                  area, and type of inspection planned. Depending on the type of
                  inspection (routine, reactive or major activity) NRC staff are
                  expected to provide this information 1-9 months before the
                  inspection occurs. Nevertheless, Inspection Manual Chapter (IMC)
                  0300, Announced and Unannounced Inspections, 15 states that
                  “…each inspection shall be announced (with the exception of those
                  performed by the resident inspectors) except when announcing the
                  inspection could reasonably compromise the objectives of the
                  inspectors.” 16

                  Security Inspection Notification

                  In accordance with agency guidance, NRC notifies licensees of
                  upcoming security inspections to facilitate the work of inspectors
                  and plant personnel. These notifications do not provide detailed
                  inspection plans. Nevertheless, NRC staff inspect physical
                  protection program areas in regular one-, two-, or three-year cycles,
                  which lends itself to licensees sharing information about how NRC
                  teams conduct inspections. Several inspectors commented that
                  NRC could mitigate the predictability inherent in its inspection policy
                  through limited-scope, short notice inspections. This approach
                  could be used without adversely impacting licensees because NRC
                  can evaluate some security program areas with minimal licensee
15
     Inspection Manual Chapter (IMC) 0300, p. 1.
16
     Italics added for emphasis.

                                                   8
                                    Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


                support. For instance, NRC inspectors could observe security
                personnel controlling access to plants and protected areas within
                plants. Inspectors could also “spot check” plant security personnel
                to ensure that they are alert and adequately trained to carry out
                their duties, which include searching vehicles and personnel for
                weapons and other contraband.

                Limited-scope, short-notice inspections could positively affect
                management culture at nuclear power plants by fostering
                accountability for employee fitness and workplace behavior. NRC
                has attributed some recent cases of security officer misconduct at
                nuclear power plants, in part, to deficient management cultures that
                overlooked or failed to deal with misconduct. Knowing that NRC
                might detect such problems through short-notice inspections,
                licensee managers would have considerable incentive to ensure
                that their personnel are fit for duty at all times.

                Agency Emphasis

                NRC does not use the policy flexibility to conduct ad hoc
                inspections because of agency emphasis on minimizing the
                regulatory burden on licensees. Agency guidance explicitly states
                that advance notification helps NRC and the licensee coordinate
                inspection activities and site operations, particularly through
                planning that considers licensee operations schedules and
                personnel availability.17 Additionally, NRC’s FY 2000-2005
                performance goal to reduce unnecessary regulatory burden on
                licensees18 underpins the agency’s policy for providing advance
                notification of activities at nuclear power reactor sites.

                Benefits of Short-Notice Security Inspections

                By routinely providing advance notice of inspections, the agency
                may not accurately capture the day-to-day security conditions at
                nuclear power plants. Advance notification enables licensees to
                share information about NRC inspection activities such as the
                inspection agenda and inspectors’ information requirements.
                This, in turn increases the risk that inspectors might not detect
                security problems, or that licensees might fix problems superficially
                for inspection purposes without solving the underlying causes of
                those problems.




17
     IMC 0300.
18
     SECY-02-0081.

                                             9
                            Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers


         In contrast, limited-scope, short-notice security inspections would
         reduce the predictability of cyclical inspections and increase NRC’s
         visibility over day-to-day operations at licensees’ facilities. The
         agency administers random drug tests to its own employees to
         achieve similar objectives, as well as for the inherent deterrent
         effect of random, short-notice testing. Likewise, special inspections
         launched in response to allegations of security breaches and officer
         misconduct at nuclear power plants have revealed management
         problems that baseline security inspections did not detect. While
         limited scope, short-notice inspections would not eliminate licensee
         negligence or malfeasance, they would discourage it by increasing
         the likelihood of detection and sanction. This, in turn, would give
         NRC greater assurance that licensees are adequately securing
         their facilities between baseline inspections.

         Recommendation

         OIG recommends that the Executive Director for Operations:

         3.    Incorporate short-notice, limited-scope inspections to the
               baseline security inspection program.


IV.   AGENCY COMMENTS

         At an exit conference held on February 21, 2008, agency managers
         provided comments concerning the draft report. We modified the
         report in response to the comments, as we deemed appropriate.
         NRC reviewed these modifications and opted not to submit formal
         comments.




                                    10
                          Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers



V. CONSOLIDATED LIST OF RECOMMENDATIONS

        OIG recommends that the Executive Director for Operations:

        1.    Revise regulations governing licensee behavioral
              observation programs to include specific criteria, such as
              program staff qualifications and procedures for managing
              unfit personnel.

        2.    Integrate behavioral observation program regulations with
              access authorization regulations in ongoing Part 73
              rulemaking.

        3.    Incorporate short-notice, limited-scope inspections to the
              baseline security inspection program.




                                  11
       Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers




[Page intentionally left blank.]




               12
                           Audit of NRC’s Oversight of Licensees’ Nuclear Security Officers

                                                                              Appendix A


SCOPE AND METHODOLOGY

       The OIG audit team reviewed relevant federal regulations, including
       fitness-for-duty provisions under 10 CFR 26, and pertinent
       regulations under 10 CFR 73. In addition, OIG reviewed internal
       agency criteria such as NRC inspection and training procedures,
       and Commission guidance.

       Auditors interviewed headquarters staff in the Office of Nuclear
       Security and Incident Response; the Office of the General Counsel;
       the Office of Enforcement; and the Office of Nuclear Reactor
       Regulation to learn about their roles and responsibilities with
       respect to oversight of licensee security personnel. Auditors also
       interviewed security inspectors and allegations coordinators in
       Regions I, II, III, and IV to assess their views on relevant oversight
       processes, and to determine if their activities are conducted in
       accordance with program requirements.

       Auditors observed a force-on-force exercise at Diablo Canyon
       Power Plant, and a relevant portion of a baseline security
       inspection at Millstone Power Station. Auditors interviewed security
       officers and licensee staff to obtain their insights on NRC’s
       oversight of security programs at these locations.

       This work was conducted from June 2007 through
       November 2007, in accordance with generally accepted
       government auditing standards. Those standards require that we
       plan and perform the audit to obtain sufficient, appropriate evidence
       to provide a reasonable basis for our findings and conclusions
       based on our audit objectives. We believe that the evidence
       obtained provides a reasonable basis for our findings and
       conclusions based on our audit objectives. The work was
       conducted by: Beth Serepca, Team Leader; Judy Gordon, Audit
       Manager; Paul Rades, Senior Analyst; and Jaclyn Storch,
       Management Analyst.




                                   13
